IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11208
Summary Calendar

FILED
April 24, 2020
Lyle W. Cayce
Clerk

CHARISE L. LOGAN,
Plaintiff - Appellant
v.

HOMELAND SECURITY; CENTRAL INTELLIGENCE AGENCY; UNITED
STATES DEPARTMENT OF DEFENSE; PRESIDENT TRUMP, Honorable;
GEORGE D. BUSH, Honorable; BARAK OBAMA, Honorable; MICHELLE
OBAMA, Honorable; GEORGE NLN; CALVIN B. DAVIS; WENDY LOGAN;
OVERLAND PARK KANSAS POLICE DEPARTMENT; ARLINGTON
POLICE DEPARTMENT; FORT WORTH POLICE DEPARTMENT;
BLOOMINGTON MINNESOTA POLICE DEPARTMENT; RICHFIELD
MINNESOTA POLICE DEPARTMENT; DON EILTS; EDMON
WITHERSPOON; US ARMY SIGNAL CORPS; UNITED STATES MARINE
CORPS; CITY OF GRAND PRAIRIE; DFW INTERNATIONAL AIRPORT;
BALLY'S FITNESS FOR LA FITNESS; WALMART; KROGER; EULESS
CAR AUCTION; CARMAX; A T& T STADIUM,

Defendants - Appellees

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-1908

A

No. 19-11208
Before STEWART, HIGGINSON, and COSTA, Circuit Judges.
PER CURIAM:*
Charise Logan appeals the district court’s judgment dismissing her
appeal as frivolous pursuant to 28 U.S.C. § 1915(e)(2). We AFFIRM.
I.
On August 9, 2019, Logan filed a 400-page pro se complaint in federal
district court seeking money damages for alleged violations of several federal
statutes related to cyber stalking, violence against women, computer hacking,
wire taps, obstruction of justice, and numerous other issues. She named as
defendants the Department of Homeland Security, the CIA, the United States
Department of Defense, President Trump, George Bush, Barack Obama,
Michelle Obama, Calvin B. Davis, Wendy Logan, the Overland Park Kansas,
Arlington, Fort Worth, Bloomington Minnesota, and Richfield Minnesota
Police Departments, Don Eilts, Edmon Witherspoon, the U.S. Army Signal
Corps, the United States Marine Corps, the City of Grand Prairie, DFW
Airport, “Bally’s Fitness for LA Fitness,” Walmart, Kroger, Euless Car Auction,
Carmax, and AT&T Stadium. Logan filed 523 pages of exhibits to accompany
her complaint. She asserted numerous claims against the named defendants
including but not limited to their “unauthorized testing” and monitoring of her
and that they used “cyberspace brainwashing video footage played into the
atmosphere” to monitor her and prevent her from obtaining employment. She
also claimed the defendants have targeted her in eleven different states and
have illegally accessed her motor vehicles through cyberspace to impair her
driving ability. She further claimed that the defendants use cyberspace to

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.
2

A

No. 19-11208
monitor her location with the intent to inject her with certain medical issues
and conditions such as diabetes, memory loss, herpes, and HIV. She further
alleged that various individuals impersonated her to deceive the public
regarding her mental health condition. The district court permitted Logan to
I

proceed in forma pauperis but withheld process pending judicial screening.
On October 22, 2019, the district court summarily dismissed Logan’s
complaint as frivolous pursuant to 28 U.S.C. § 1915(e)(2) on grounds that it
“lack[ed] an arguable basis either in law or in fact.” Neitzke v. Williams, 490
U.S. 319, 325 (1989). Logan now appeals to this court. The essence of her
argument on appeal is that the district court erred in dismissing her complaint
as frivolous.
II.
“We review a district court’s dismissal of an in forma pauperis complaint
as frivolous pursuant to 28 U.S.C. § 1915(e)(2)(B)(i) for an abuse of discretion.”
Brewster v. Dretke, 587 F.3d 764, 767 (5th Cir. 2009). As noted by the district
court, “a claim may be dismissed as frivolous if it does not have an arguable
t

basis in fact or law.” Id. (citing Gonzales v. Wyatt, 157 F.3d 1016, 1019 (5th
Cir. 1998)).
III.
After considering the arguments as briefed on appeal,1 and after
reviewing the record and the applicable law, we AFFIRM the district court’s
judgment dismissing Logan’s complaint as frivolous pursuant to 28 U.S.C. §
• 1915(e)(2).

appeal.

For obvious reasons, none of the named appellees have filed a response brief on
3

Case: 19-11208

Document: 00515394231

Page: 1

Date Filed: 04/24/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11208
Summary Calendar
D.C. Docket No. 3:19-CV-1908

FILED
April 24, 2020
Lyle W. Cayce
Clerk

CHARISE L. LOGAN,
Plaintiff - Appellant
v.

HOMELAND SECURITY; CENTRAL INTELLIGENCE AGENCY; UNITED
STATES DEPARTMENT OF DEFENSE; PRESIDENT TRUMP, Honorable;
GEORGE D. BUSH, Honorable; BARAK OBAMA, Honorable; MICHELLE
OBAMA, Honorable; GEORGE NLN; CALVIN B. DAVIS; WENDY LOGAN;
OVERLAND PARK KANSAS POLICE DEPARTMENT; ARLINGTON
POLICE DEPARTMENT; FORT WORTH POLICE DEPARTMENT;
BLOOMINGTON MINNESOTA POLICE DEPARTMENT; RICHFIELD
MINNESOTA POLICE DEPARTMENT; DON EILTS; EDMON
WITHERSPOON; US ARMY SIGNAL CORPS; UNITED STATES MARINE
CORPS; CITY OF GRAND PRAIRIE; DFW INTERNATIONAL AIRPORT;
BALLY'S FITNESS FOR LA FITNESS; WALMART; KROGER; EULESS
CAR AUCTION; CARMAX; A T& T STADIUM,
Defendants - Appellees
Appeal from the United States District Court for the
Northern District of Texas
Before STEWART, HIGGINSON, and COSTA, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is

A

A

Case: 19-11208

Document: 00515394231

Page: 2

Date Filed: 04/24/2020

affirmed.

j

A

Case 3:19-cv-01908-M-BT Document 11 Filed 10/08/19

Page lot 4 PagelD 1358

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
CHARISE L. LOGAN,
Plaintiff,

§
§
§

v.

§

HOMELAND SECURITY, et al.,
Defendants.

§
§
§
§

No. 3:i9-cv-oi9o8-M (BT)

FINDINGS, CONCLUSIONS, AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Plaintiff Charise Logan has filed a pro se civil action in federal court. The
Court granted her leave to proceed in forma pauperis, but withheld process
pending judicial screening. Now, for the following reasons, the Court recommends
that Plaintiffs complaint be summarily dismissed as frivolous pursuant to 28
U.S.C. § 1915(e)(2).
I.
On August 9, 2019, Plaintiff filed a 400-page complaint seeking money
damages for alleged violations of various federal statutes related to cyber stalking,
violence against women, computer hacking, wire taps, obstruction of justice, and
other issues. She names the Department of Homeland Security, the CIA, the United
States Department of Defense, President Trump, George Bush, Barak Obama,
Michelle Obama, George (no last name), Calvin B. Davis, Wendy Logan, the
Overland Park Kansas Police Department, the Arlington Police Department, the
1

Case 3:19-cv-01908-M-BT Document 11 Filed 10/08/19 Page 2 of 4 PagelD 1359
Fort Worth Police Department, the Bloomington Minnesota Police Department,
the Richfield Minnesota Police Department, Don Eilts, Edmon Witherspoon, the
U.S. Army Signal Corps, the United States Marine Corps, the City of Grand Prairie,
DFW Airport, “Bally’s Fitness for LA Fitness,” Walmart, Kroger, Euless Car
Auction, Carmax, and AT&T Stadium as defendants. On August 13, 2019, Plaintiff
filed 523 pages of exhibits. She also filed additional attachments to her complaint
on August 20 and 27, 2019, and on September 4, 2019.
Plaintiff asserts numerous claims against Defendants, including claims that
Defendants have conducted “unauthorized testing” and monitoring on her. She
alleges Defendants use “cyberspace brainwashing video footage played into the
atmosphere” to monitor her and prevent her from obtaining employment. Compl.
15-16 (ECF No. 3). She states Defendants have targeted her in eleven different
states and have illegally accessed her motor vehicles through cyberspace to impair
her driving ability. She also claims Defendants use cyberspace to monitor her
location with the intent to inject her with certain medical issues such as varicose
veins, diabetes, impaired vision, memory loss, herpes, HIV and other conditions.
Finally, she alleges that various people impersonate her to deceive the public
regarding her mental condition.
II.
A district court may summarily dismiss a complaint filed in forma pauperis
if it concludes the action is: (1) frivolous or malicious; (2) fails to state a claim on
2

Case 3:19-cv-01908-M-BT Document 11 Filed 10/08/19

Page 3 of 4 PagelD 1360

which relief may be granted; or (3) seeks monetary relief against a defendant who
is immune from such relief. 28 U.S.C. § 1915(e)(2)(B). A complaint is frivolous
when it “lacks an arguable basis either in law or in fact.” Neitzke v. Williams, 490
U.S. 319,325 (1989). A court may dismiss a complaint as frivolous when it is based
on an indisputable meritless legal theory or when the factual contentions are
“clearly baseless.” Denton v. Hernandez, 504 U.S. 25, 32 (1992). The latter
category encompasses allegations that describe “fanciful, fantastic, and delusional”
scenarios, or that “rise to the level of the irrational or wholly incredible.” Id. at 33.
Courts must liberally construe pleadings filed by pro se litigants. See
Erickson v. Pardus, 551 U.S. 89, 94 (2007). Even under the most liberal
construction, however, Plaintiffs allegations describe irrational or wholly
incredible claims against Defendants. Plaintiffs complaint should be dismissed as
frivolous.
III.
The Court recommends that the complaint be summarily dismissed with
prejudice as frivolous pursuant to 28 U.S.C. § 1915(e)(2).
Signed October 8, 2019.

REBECC^fUTHERFORD
UNITED ST-jArES MAGISTRATE JUDGE

3

Case 3:19-cv-01908-M-BT Document 11 Filed 10/08/19

Page 4 of 4 PagelD 1361

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
The United States District Clerk is directed to serve a true copy of these
findings, conclusions, and recommendation on the parties. Pursuant to Title 28,
United States Code, Section 636(b)(1), any party who desires to object to these
findings, conclusions, and recommendation must serve and file written objections
within 14 days after being served with a copy. A party filing objections must
specifically identify those findings, conclusions, or recommendation to which
objections are being made. The District Court need not consider frivolous,
conclusory, or general objections. A party’s failure to file such written objections
to these proposed findings, conclusions, and recommendation will bar that party
from a de novo determination by the District Court. See Thomas v. Am, 474 U.S.
140,150 (1985). Additionally, any failure to file written objections to the findings,
conclusions, and recommendation within 14 days after being served with a copy
will bar the aggrieved party from appealing the factual findings and legal
conclusions of the Magistrate Judge that are accepted by the District Court, except
upon grounds of plain error. See Douglass v. United Services Auto. Ass’n, 79 F.3d
1415,1417 (5th Cir. 1996) (en banc).

4

Case 3:19-cv-01908-M-BT Document 13 Filed 10/22/19

Page 1 of 1 PagelD 1385

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

CHARISE L LOGAN,
Plaintiff,
v.
HOMELAND SECURITY et al.,
Defendants.

§
§
§
§
§
§
§
§

No. 3:i9-cv-oi908-M (BT)

ORDER
The United States Magistrate Judge made Findings, Conclusions and a
Recommendation in this case. Plaintiff filed objections, and the District Court has
made a de novo review of those portions of the proposed Findings and
Recommendation to which objection was made. The objections are overruled, and
the Court ACCEPTS the Findings, Conclusions and Recommendation of the
United States Magistrate Judge.
Signed this 22nd day of October, 2019.

ARBARA M.
fflEF JUDGE

Case 3:19-cv-01908-M-BT Document 14 Filed 10/22/19

Page 1 of 1 PagelD 1386

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

CHARISE L LOGAN,
Plaintiff,
v.
HOMELAND SECURITY et al.,
Defendants.

§
§
§
§
§
§
§
§

No. 3:i9-cv-oi9o8-M (BT)

JUDGMENT
This action came on for consideration by the Court, and the issues having
been duly considered and a decision duly rendered,
It is ORDERED, ADJUDGED and DECREED that the complaint is
DISMISSED with prejudice as frivolous pursuant to 28 U.S.C. § 1915(e)(2).
It is further ORDERED that the Clerk shall transmit a true copy of this
Judgment to the parties.
Signed this 22nd day of October, 2019.

ARBARA M. G. LYNN
4flE¥ JUDGE
V

Additional material
from this filing is
available in the
Clerk's Office.

